No.

PROOF OF SERVICE

In re SCOTT LOUIS YOUNGBEAR, Petitioner

I, Scott Louis YoungBear, do swear or declare that on this date,
November 27, 2019, as required by Supreme Court Rule 29 I have
served the enclosed petition for a writ of habeas corpus on the party
required to be served, by depositing an envelope containing the above
documents in the United States man properly addressed and with firstclass postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Tom Miller
Office of the Attorney General of Iowa
Hoover State Office Building
1305 E. Walnut Street
Des Moines IA 50319
I declare under penalty of perjury that the foregoing is true and correct.
Executed on Julv^i. 2020

